Supreme Court, U.S.
FILED

MAY 1 0 2021
SUPREME COURT OF THE UNITED STATES

OFFICE OF THE CLERK

No. 20-7670
FAIZAH DEAN

WORKERS' COMP APPEALS BRD et al
V.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
0

I am filing this waiver on behalf of all respondents,

®

I only represent some respondents. I am filing this waiver on behalf of the folloWing respondent(s):

SOUTHERN CALIFORNIA EDISON

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter,
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response .?
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

.04

Signature:
Date:

15/10/2021

(Type or print) Name PETER KARLZEN, CAL STATE BAR NO. 157104
0 Mr.

0 Ms.

0 Mrs.

Firm

KARLZEN ASSOCIATES REDONDO BEACH

Address

4001 INGLEWOOD AVE BLDG 101 STE 303

City & State

REDONDO BEACH, CA

Phone

.833-914-4433

0 Miss

Zip 90278
Email PJK@KARHUTLAW.COM

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is require
SUPREME COURT OF THE U.S., ONE FIRST ST NE WASHINGTON DC 20543
FAIZAH DEAN, 8202 MAGNOLIA AVE #11 RIVERSIDE CA 92504
cc:
CA WORKERS COMP APPLS BRD, 455 GOLDEN GATE AVE 9TH FL SAN FRANCISCO CA 94102

RECEIVED
MAY 1 8 2021

OFFICE OF THE CLER
SUPREME COURT u <

PROOF OF SERVICE AFFIDAVIT
CCP 1013(a), CCP 1013(b), and CCP 1013a(3)
STATE OF CALIFORNIA, COUNTY OF LOS ANGELES
My name is David Birdsall.
I am over the age of 18 and not a party to the related cause(s).
I am employed at DocuCents in the county of Los Angeles, State of California, which is where the
mailing occurred.
My business address is: 960 S Village Oaks Dr, Covina, CA 91724, which is where I placed the
correspondence described herein for deposit in the United States Postal Service.
I am readily familiar with the business' practice for collection and processing of correspondence
for mailing with the United States Postal Service.
The following correspondence will be deposited with the United States Postal Service this same
day in the ordinary course of business.
Each envelope was sealed and placed for collection and mailing on 05/10/2021, following
ordinary business practices.
The exact TITLE of the document(s) served and the name(s) and address(s) of the people or
entities being served are listed on the following attached Service List(s). This affidavit may include
multiple Service Lists for documents which were mailed to many different parties on unrelated
causes as part of the ordinary course of services.
I declare under penalty of perjury under the laws of the State of California that the foregoing and
all information contained in the attached Service List(s) is true and correct.

Printed name: David Birdsall
Dated: 05/10/20(21x

Attachments: Service ListiS) included as part of this affidavit.

